{-t"
   ~~




 :::jE
"'' +...
    ~
           ~SUV'CIS.

                    {,J':



                               DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                        Office of Inspector General
                                                                                                        Office of Audit Services



                                                                                                        Region VU

        ~¥)rclJa
                                                                                                        60 I East 12th Street

                                                                                                        Room 429
                             AR 2 5 2009                                                                Kansas City, Missouri 64106



                        Report Number: A-07-08-04122

                        Mr. Ronald J. Levy
                        Director
                        Department of Social Services
                        Broadway State Office Building
                        P.O. Box 1527

                        Jefferson City, Missouri 65102-1527


                        Dear Mr. Levy:

                        Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                        General (OIG), final report entitled "Review of Missouri's Medicaid Management Information
                        System Expenditures for the Period October 1,2004, Through September 30,2007." We will
                        forward a copy of this report to the HHS action official noted on the following page for review
                        and any action deemed necessary.

                        The HHS action official will make final determination as to actions taken on all matters reported.
                        We request that you respond to this official within 30 days from the date of this letter. Your
                        response should present any comments or additional information that you believe may have a
                        bearing on the final determination.

                        Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                        available to the public to the extent that information in the report is not subject to exemptions in
                        the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                        If you have any questions or comments about this report, please do not hesitate to call me at
                        (816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through e-mail
                        at Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-08-04122 in all
                        correspondence.

                                                                       Sincerely,




                                                                      Patrick J.  gley
                                                                      Regional Inspector General
                                                                       for Audit Services


                        Enclosure
Page 2 – Mr. Ronald J. Levy


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF MISSOURI’S
   MEDICAID MANAGEMENT
     INFORMATION SYSTEM
    EXPENDITURES FOR THE
   PERIOD OCTOBER 1, 2004,
 THROUGH SEPTEMBER 30, 2007




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-07-08-04122
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

A Medicaid management information system (MMIS) is a system of software and hardware used
to process Medicaid claims and manage information about Medicaid beneficiaries and services.
Section 1903(a) of the Social Security Act authorizes Federal reimbursement for the operation of
an MMIS at an enhanced rate of 75 percent. The Centers for Medicare & Medicaid Services
(CMS) “State Medicaid Manual” identifies the specific types of MMIS costs that are allowable
for Federal reimbursement. For such costs to be allowable at the enhanced rate of 75 percent,
they must be directly related to the operations of the MMIS for ongoing automated processing of
claims, payments, and reports.

In Missouri, the Department of Social Services (the State agency) administers the Medicaid
program with Federal oversight from CMS. Currently, Missouri’s MMIS processes both
Medicaid and non-Medicaid claims. However, prior to January 2006, Missouri’s MMIS
processed only Medicaid claims.

The State agency contracted with a fiscal agent, Infocrossing Healthcare Systems, Inc., to
process claims through the MMIS. During the 3-year period October 1, 2004, through
September 30, 2007, the State agency claimed $82,212,209 ($61,806,693 Federal share) as
MMIS costs for reimbursement under the Medicaid program.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for MMIS costs for the period
October 1, 2004, through September 30, 2007, were (1) allowable and equitably allocated and
(2) claimed at the correct Federal reimbursement rate.

SUMMARY OF FINDINGS

Of the $82,212,209 ($61,806,693 Federal share) of MMIS costs that the State agency claimed at
the enhanced rate, $67,199 (Federal share) was unallowable because the State agency claimed
these costs at incorrect reimbursement rates. The $67,199 consisted of incorrectly claimed
administrative ($54,480) and postage ($12,719) costs. The remaining $61,739,494 (Federal
share) in claimed costs were allowable and equitably allocated.

The State agency incorrectly claimed these costs for Federal reimbursement because it did not
have adequate internal controls and procedures to ensure that it claimed all of its MMIS costs at
the correct reimbursement rate.

RECOMMENDATION:

We recommend that the State agency:

   •   refund $67,199 to the Federal Government;



                                                i
   •   strengthen internal controls to ensure that MMIS costs claimed for Federal
       reimbursement are claimed at the correct Federal reimbursement rate; and

   •   review MMIS costs claimed for Federal reimbursement after September 30, 2007, to
       ensure that all costs were claimed at the correct Federal reimbursement rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our first and third
recommendations and partially agreed with our second recommendation.

With respect to our second recommendation, the State agency said that it considered the current
internal controls “. . . to be acceptable and the processing error [involving the unallowable
postage costs] to be attributable to human error.” For our finding related to unallowable
administrative costs, the State agency commented that it “. . . will expand internal controls to
include quarterly reviews of the duties for the MO [Missouri] HealthNet Division staff to ensure
the appropriate allocation of time has been claimed at the correct federal reimbursement rate.”

The State agency’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we continue to support our findings and
recommendations.




                                                ii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

States report Medicaid expenditures for medical assistance and administrative costs to CMS on
the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” Form
CMS-64 (CMS-64 report). The standard Federal reimbursement rate for Medicaid
administrative expenditures is 50 percent.

Medicaid Management Information System

Section 1903(r)(1) of the Act states that, to receive Federal funding for the use of automated data
systems in administration of the Medicaid program, the State must have a mechanized claims
processing and information retrieval system. The CMS “State Medicaid Manual,” Chapter 11,
Section 11100, states that, for Medicaid purposes, the mechanized system is the Medicaid
management information system (MMIS). An MMIS is a system of software and hardware used
to process Medicaid claims and manage information about Medicaid beneficiaries and services.
The system may be operated by either a State agency or a fiscal agent, which is a private
contractor hired by the State.

Section 1903(a) of the Act authorizes a 90-percent Federal reimbursement rate for design,
development, or installation of an MMIS. These costs must be approved by CMS prior to the
expenditure of funds. The Act also authorizes a 75-percent Federal reimbursement rate for
operation of an MMIS. The CMS “State Medicaid Manual” identifies the specific types of
MMIS costs that are allowable for Federal reimbursement. For such costs to be allowable at the
enhanced rate of 75 percent, they must be related to the operations of the MMIS for ongoing
automated processing of claims, payments, and reports.

Missouri Medicaid Management Information System

In Missouri, the Department of Social Services (the State Agency) administers the Medicaid
program with Federal oversight from CMS. Currently, Missouri’s MMIS processes both
Medicaid and non-Medicaid claims. However, prior to January 2006, Missouri’s MMIS




                                                 1
processed only Medicaid claims. Federal regulations require that MMIS costs be equitably
allocated to all benefiting programs. 1

During our audit period, the State agency contracted with a fiscal agent, Infocrossing Healthcare
Services, Inc. (IFOX), to process claims through the MMIS. During the 3-year period October 1,
2004, through September 30, 2007, the State agency claimed $82,212,209 ($61,806,693 Federal
share) at the enhanced rates as MMIS costs for reimbursement under the Medicaid program.
During this period, the MMIS processed over 235 million Medicaid and non-Medicaid claims
(an average of over 6.5 million claims per month).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for MMIS costs for the period
October 1, 2004, through September 30, 2007, were (1) allowable and equitably allocated and
(2) claimed at the correct Federal reimbursement rate.

Scope

We limited our review to $82,212,209 ($61,806,693 Federal share) the State agency claimed as
MMIS costs for reimbursement at the enhanced rates under the Medicaid program during the 3-
year period October 1, 2004, through September 30, 2007.

The State agency also claimed $138,915 ($125,024 Federal share) that was not included in our
review. We excluded these costs because, prior to our review, CMS had determined that these
costs did not qualify for funding at the 90-percent rate because the State agency did not obtain
the required prior approval from CMS for these expenditures. CMS had disallowed enhanced
funding, but it allowed the State agency funding at the 50-percent rate.

We did not perform a detailed review of the State agency’s internal controls. We limited our
review to obtaining an understanding of the procedures used to (1) receive, review, and process
claims for reimbursement and (2) calculate and claim the Federal share for MMIS expenditures.

We performed fieldwork at State agency’s offices located in Jefferson City, Missouri, and at the
CMS regional office in Kansas City, Missouri.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations and CMS guidance;



1
 2 CFR part 225, Office of Management and Budget Circular (OMB) A-87, “Cost Principles for State, Local, and
Indian Tribal Governments.”


                                                      2
   •   reviewed the State agency’s policies, procedures, and cost reimbursement guidance for
       ensuring that MMIS costs were allowable, equitably allocated, and claimed at the correct
       Federal reimbursement rate;

   •   reviewed the State agency’s contracts with IFOX and other vendors;

   •   compared amounts claimed by the State agency on the CMS-64 reports to supporting
       spreadsheets and invoices for the period October 1, 2004, though September 30, 2007;

   •   traced amounts on the supporting spreadsheets to vendor invoices, State payroll records,
       and other supporting documentation;

   •   interviewed State agency employees to develop our findings regarding the percentages of
       job time devoted to MMIS-related activities, and validated these percentages in follow-on
       communications with State agency officials; and

   •   discussed the details of our findings with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $82,212,209 ($61,806,693 Federal share) of MMIS costs that the State agency claimed at
the enhanced rate, $67,199 (Federal share) was unallowable because the State agency claimed
these costs at incorrect reimbursement rates. The $67,199 consisted of incorrectly claimed
administrative ($54,480) and postage ($12,719) costs. The remaining $61,739,494 (Federal
share) in claimed costs were allowable and equitably allocated.

The State agency incorrectly claimed these costs for Federal reimbursement because it did not
have adequate internal controls and procedures to ensure that it claimed all of its MMIS costs at
the correct reimbursement rate.

UNALLOWABLE COSTS

Administrative Costs

OMB Circular A-87, Attachment A, section C.1.a, states that, to be allowable, a cost must “[b]e
necessary and reasonable for proper and efficient performance and administration of Federal
awards.”




                                                 3
The CMS “State Medicaid Manual,” Part 11, Chapter 2, provides for various levels of Federal
reimbursement depending on the relationship of the activity to the MMIS:

       •   Section 11276.3 provides for a 75 percent Federal reimbursement rate for direct costs
           directly attributable to the Medicaid program for ongoing automated processing of
           claims.

       •   Section 11276.1 provides for a 50 percent Federal reimbursement rate for other
           functions, even if those functions are performed by the same unit or individuals.

For the period October 1, 2004, through September 30, 2007, the State agency incorrectly
claimed administrative salary and fringe benefit costs as MMIS costs at the 75-percent rate
instead of at the 50-percent rate, resulting in an overclaim of $54,480 (Federal share). Based on
our interviews with State agency employees, we identified four individuals for whom the
percentages of time spent performing MMIS-related activities were less than the percentages
conveyed in the salary allocations that the State agency used to claim Federal reimbursement.
Although the costs claimed were allowable under Medicaid, the portions of the four employees’
duties that were unrelated to MMIS activities were not directly attributable to the ongoing
automated processing of claims. Costs associated with those non-MMIS-related activities should
therefore have been claimed at only the 50-percent rate.

When we notified State agency officials of the discrepancies in the percentages used to claim
costs for the four employees, those officials agreed with our finding and provided us with revised
percentages for the allocation of time that these four individuals spent performing MMIS-related
activities. A comparison of these revised percentages with the percentages that the State agency
had used to claim Federal reimbursement (for administrative salary and fringe benefit costs as
MMIS-related costs) incorrectly at the 75-percent rate identified an overclaim of $54,480
(Federal share).

Postage Costs

The CMS “State Medicaid Manual,” Part 11, Chapter 2, section 11276.8 states: “. . . all postage
costs associated with the operation of an MMIS are matched at the 50 percent FFP rate.” For the
quarter ended June 30, 2005, the State agency miscoded two invoices (that is, it incorrectly
coded the costs delineated on these invoices at the 75-percent rate of Federal reimbursement,
instead of at the 50-percent rate) and then incorrectly claimed postage costs associated with these
invoices at the 75-percent rate, resulting in an overclaim of $12,719 (Federal share).

Internal Controls and Procedures

The State agency incorrectly claimed these costs for Federal reimbursement because it did not
have adequate internal controls and procedures to ensure that it claimed all of its MMIS costs at
the correct reimbursement rate.




                                                 4
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $67,199 to the Federal Government;

   •   strengthen internal controls to ensure that MMIS costs claimed for Federal
       reimbursement are claimed at the correct Federal reimbursement rate; and

   •   review MMIS costs claimed for Federal reimbursement after September 30, 2007, to
       ensure that all costs were claimed at the correct Federal reimbursement rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our first and third
recommendations and partially agreed with our second recommendation.

With respect to our second recommendation, the State agency said that it considered the current
internal controls “. . . to be acceptable and the processing error [involving the unallowable
postage costs] to be attributable to human error.” For our finding related to unallowable
administrative costs, the State agency commented that it “. . . will expand internal controls to
include quarterly reviews of the duties for the MO [Missouri] HealthNet Division staff to ensure
the appropriate allocation of time has been claimed at the correct federal reimbursement rate.”

For our third recommendation, the State agency said that its Division of Finance and
Administrative Services “will work with the MO HealthNet Division to ensure costs claimed for
federal reimbursement after September 30, 2007 were claimed at the correct federal
reimbursement rate.”

The State agency’s comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we continue to support our findings and
recommendations.




                                                5
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
